                                                        OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM




          Our office conducted a proactive review for plagiarism in REU proposals and identified copied
          text within a proposal'. The proposal was to sponsor a summer internship program at a federal
          agencg. The text was copied from work done by students, who were previous participants in the
          program and temporary employees of the agency. The source document was an agency summary
          report that discussed projects the students had worked on. The proposal indicates that it was
          students' work however does not name the student who authored the text.

          The text, although authored by the students, was specifically written about their experience while
          participating in the agency program and that text is contained in a document that was identified
          as an agency publication summarizing the accomplishments of that program. As such, the text
          seems to reasonably be the intellectual property of the agency program and not the students
          themselves and therefore the act does not appear to constitute plagiarism.

                    Accordingly, this case is closed.




NSF OIG Form 2 (1 1/02)
